                  Risks Are Mounting as the Integrated
              Financial System Project Team Strives to Meet
                   an Aggressive Implementation Date

                                   October 2003

                       Reference Number: 2004-20-001




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       October 7, 2003


       MEMORANDUM FOR CHIEF INFORMATION OFFICER


       FROM:                         Gordon C. Milbourn III
                                     Assistant Inspector General for Audit (Small Business and
                                     Corporate Programs)

       SUBJECT:                      Final Audit Report - Risks Are Mounting as the Integrated
                                     Financial System Project Team Strives to Meet an Aggressive
                                     Implementation Date (Audit # 200320038)


       This report presents the results of our review of the Integrated Financial System (IFS)
       Release 1. The overall objective of this review was to assess whether the Business
       Systems Modernization Office (BSMO) and the PRIME contractor1 have controls in
       place to ensure that activities for testing, business contingencies, enterprise architecture
       compliance, and transition management are adequately planned for the IFS Release 1.
       Additionally, we reviewed any recent or anticipated changes to the costs and benefits of
       the IFS Release 1.
       Beginning in 1995, the General Accounting Office designated the Internal Revenue
       Service’s (IRS) financial management area as a high-risk Federal Governmental
       operation.2 The IRS intends to address administrative financial management
       weaknesses by implementing the IFS.
       During the audit period, the IFS project team made progress toward implementing the
       first release of the IFS in October 2003. Specifically, the project team has begun
       important testing activities, ensured compatibility with the Security and Technology
       Infrastructure Release (STIR),3 and ensured redundant hardware is planned for

       1
         The Internal Revenue Service hired the Computer Sciences Corporation as the PRIME contractor to design and
       develop modernization programs and projects; it created the BSMO to coordinate and oversee the work of the
       PRIME contractor.
       2
         Major Management Challenges and Program Risks: A Government-wide Perspective (GAO-03-95, dated
       January 2003).
       3
         The STIR project will provide the secure technical infrastructure to support and enable the delivery of the IRS’
       modernized business systems. The STIR is now a part of the Infrastructure Shared Services program.
                                                           2


implementation. However, we also determined that testing practices could be improved,
project costs are increasing, some functionality has been postponed, and disaster
recovery will not be optimal or fully tested prior to implementation.
Since the IFS project team is in the midst of critical testing activities, we communicated
the results of our analyses intermittently during the audit. Therefore, this report is
historical in nature and may not reflect the most current testing activities or processes.
A follow-up audit will be conducted to provide additional analyses and recommendations
as the IFS project works toward implementation.
To help ensure that a high-quality system is delivered, we recommended that the Chief
Information Officer (CIO) ensure that testing practices are strengthened in future tests,
data cleaning4 issues and the business risk of untimely IFS implementation are formally
tracked, and life cycle documentation is updated. We also recommended that the CIO
ensure that independent testing roles are documented, disaster recovery capabilities
are implemented and tested as soon as possible, and IFS classification in the draft
Technical Contingency Planning Document is reconsidered.
Management’s Response: BSMO management requested an extension to respond
to our draft report from September 25, 2003, to October 2, 2003. As of
October 3, 2003, management had not responded to the draft report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




4
 Data cleaning, or data cleansing, refers to the process of correcting inconsistencies or errors within an old system’s
data to make them usable by the new system.
             Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date




                                                Table of Contents


Background ............................................................................................... Page 1
The Project Team Is Making Progress Toward Its Scheduled
Implementation Date ................................................................................. Page 2
Project Testing Practices Can Be Improved .............................................. Page 4
         Recommendations 1 and 2: ......................................................... Page 9
         Recommendations 3 through 5: .................................................... Page 10

Project Costs Are Increasing and Some Functionality Has
Been Postponed ........................................................................................ Page 10
Disaster Recovery Will Not Be Optimal or Fully Tested Before
Initial Implementation................................................................................. Page 11
         Recommendations 6 and 7: .......................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Independent Testing Roles Example.................................. Page 16
Appendix V – Integrated Financial System Testing Risk
and Complexity.......................................................................................... Page 17
         Risks Are Mounting as the Integrated Financial System Project Team
                 Strives to Meet an Aggressive Implementation Date

                                The Internal Revenue Service (IRS) is currently
Background
                                modernizing its computer systems and business processes
                                and practices. This effort is known as Business Systems
                                Modernization (BSM). One of the BSM projects is the
                                Integrated Financial System (IFS), which will help to
                                modernize the IRS’ financial systems and processes.
                                Beginning in 1995, the General Accounting Office (GAO)
                                designated the IRS’ financial management area as a
                                high-risk Federal Governmental operation.1 In Fiscal
                                Year (FY) 2002, the President included “improving
                                financial performance” as one of five Government-wide
                                areas needing improvement. Recently, the GAO concluded
                                that financial systems and internal control weaknesses
                                continue to preclude the IRS from providing managers with
                                financial information needed to make day-to-day decisions.2
                                The IRS intends to address administrative financial
                                management weaknesses by implementing the IFS. The
                                first release of the IFS will include the Accounts Payable,
                                Accounts Receivable, General Ledger, Budget Execution,
                                Cost Management, and Financial Reporting activities. A
                                future IFS release will be needed to fully resolve all
                                administrative financial management weaknesses.
                                Therefore, all actions needed to address financial
                                management weaknesses are not scheduled for
                                implementation until January 2006.
                                This review was performed at the IRS National
                                Headquarters and the Business Systems Modernization
                                Office (BSMO) facilities in New Carrollton, Maryland. The
                                audit was conducted between January and July 2003 in
                                accordance with Government Auditing Standards. To
                                provide timely feedback during critical testing activities, we
                                communicated the results of our analyses intermittently
                                during the audit. These communications are discussed
                                throughout the report.


                                1
                                  Major Management Challenges and Program Risks: A
                                Government-wide Perspective (GAO-03-95, dated January 2003).
                                2
                                  IRS Modernization: Continued Progress Necessary for Improving
                                Service to Taxpayers and Ensuring Compliance (GAO-03-796T, dated
                                May 2003).
                                                                                          Page 1
           Risks Are Mounting as the Integrated Financial System Project Team
                   Strives to Meet an Aggressive Implementation Date

                                  The BSMO and the PRIME contractor3 were making
                                  changes to IFS testing activities during our review period,
                                  and changes that have occurred since we concluded our
                                  analysis in early July 2003 are not reflected in this report.
                                  As a result, this report may not reflect the most current
                                  activities or processes. We plan to conduct a follow-up
                                  audit to assess changes being made and future activities as
                                  the IFS project team works toward implementing the IFS
                                  Release 1. Detailed information on our audit objective,
                                  scope, and methodology is presented in Appendix I. Major
                                  contributors to the report are listed in Appendix II.
                                  The IFS project team has made progress toward
The Project Team Is Making
                                  implementing the IFS Release 1 in October 2003.
Progress Toward Its Scheduled
                                  Specifically, the project team has begun important testing
Implementation Date
                                  activities, ensured compatibility with the Security and
                                  Technology Infrastructure Release (STIR),4 and ensured
                                  redundant hardware is planned for implementation.
                                  Important IFS testing activities have begun
                                  In May 2003, the project team created an Application
                                  Qualification Testing (AQT) Plan describing the procedures
                                  to be followed during AQT. AQT involves testing an
                                  application before it is integrated with other release
                                  components. The intent is to discover and resolve errors
                                  prior to more formal systems integration testing. The AQT
                                  Plan included a detailed schedule of activities to be
                                  completed and predefined entrance and exit criteria. In
                                  addition, the project team conducted a test readiness review
                                  to determine if the project was ready to proceed with AQT.
                                  In July 2003, the first part of AQT was completed.




                                  3
                                    The IRS hired the Computer Sciences Corporation as the PRIME
                                  contractor to design and develop modernization programs and projects;
                                  it created the BSMO to coordinate and oversee the work of the PRIME
                                  contractor.
                                  4
                                    The STIR project will provide the secure technical infrastructure to
                                  support and enable the delivery of the IRS’ modernized business
                                  systems. The STIR is now a part of the Infrastructure Shared Services
                                  program.
                                                                                                 Page 2
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       In May 2003, the project team delivered a data conversion5
                       test plan that describes the methods for ensuring that data
                       conversion programs work correctly. The plan included a
                       detailed schedule of activities to be followed. At the end of
                       our audit work, the first data conversion test was underway.
                       In July 2003, the first part of the System Integration Test
                       (SIT) began. The SIT ensures that all system components
                       (hardware and software) are working correctly and
                       collectively with other related or dependent systems. A
                       follow-up audit will be conducted to review the results of
                       the SIT.
                       The IFS is compatible with the STIR
                       As part of an earlier review by the BSMO, the project team
                       was required to prove that a unique component of the IFS
                       was compatible with the STIR. Early testing has proven
                       that this component works with the STIR.
                       Redundant hardware is planned for implementation
                       Based on a review of project documentation with a MITRE6
                       official, we determined that hardware redundancy7 is
                       planned for initial implementation of the IFS at the
                       production site. Therefore, the system should be able to
                       recover from a short-term equipment failure if hardware
                       devices are configured correctly.
                       While the BSMO and PRIME contractor have made
                       significant strides toward delivering the first release of the
                       IFS, the project risks are mounting, and the project team is
                       beginning to encounter obstacles as it attempts to meet the
                       aggressive schedule for an October 2003 implementation
                       date.




                       5
                         Data conversion involves testing the ability of computer programs to
                       transform data from a prior application into usable IFS data.
                       6
                         The IRS hired the MITRE Corporation as a Federally Funded Research
                       and Development Center to assist with the BSM effort.
                       7
                         Redundancy refers to computer components, such as hard disk drives,
                       operating systems, and telecommunication links, that are installed to
                       back up primary resources in case they fail.
                                                                                     Page 3
             Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date

                                    Project success can be defined as meeting cost, schedule,
                                    and quality constraints, often portrayed as a triangle (see
                                    Figure 1). Any change to one of these three constraints will
                                    affect one or both of the remaining constraints.
                                             Figure 1: Classic Project Management Triangle




                                    Source: IRS Document 7357 (Rev. 12-93) “Project Management
                                    Guide” Version 2.1.

                                    At the end of our audit fieldwork, the IFS project team was
                                    holding to the October 2003 implementation date.
                                    Therefore, our review focused on risks in the area of quality
                                    and cost. We identified the following areas that BSMO and
                                    PRIME management will need to focus on as they strive to
                                    meet an aggressive schedule:
                                    •   Project testing practices can be improved.
                                    •   Costs are increasing and some functionality has been
                                        postponed.
                                    •   Disaster recovery will not be optimal or fully tested
                                        before initial implementation.
                                    At the end of our audit fieldwork, a significant set of tests,
Project Testing Practices Can Be
                                    known as the SIT, was beginning and data conversion
Improved
                                    testing was continuing. We determined that the following
                                    improvements should be made as testing progresses:
                                    •   Lessons learned from the AQT should be applied to the
                                        SIT.
                                    •   Data conversion issues should be tracked.
                                    •   Independent testing roles should be defined.
                                    •   Risk reduction planning regarding implementation
                                        uncertainties should be formalized.

                                                                                             Page 4
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       Lessons learned from the AQT should be applied to the
                       SIT
                       The IFS project team delivered AQT planning materials just
                       prior to the start of AQT. Therefore, any deficiencies that
                       were noted could not be corrected in time to meet the
                       scheduled AQT start date. If these deficiencies are not
                       corrected prior to the SIT, the IFS may not be thoroughly
                       tested, and the IRS may accept a system that does not
                       function as intended.
                       The AQT Plan included a set of entrance criteria, test cases,
                       a detailed schedule of test cases to be run, and a
                       requirements traceability verification matrix. Based on our
                       review of this documentation, we communicated the
                       following concerns to BSMO officials on June 18, 2003.
                       •   Entrance criteria – The AQT Plan documents the
                           entrance criteria that should be met for AQT to proceed
                           (e.g., test cases are fully documented and all testing
                           personnel are identified). We determined that test cases
                           were not fully documented and all testing personnel
                           were not identified. Therefore, the AQT entrance
                           criteria were not met before starting AQT activities.
                       •   Test cases – A test case should contain a specific set of
                           conditions, data, and expected results8 for a particular
                           test objective. However, not all AQT test cases were
                           complete. For example, test cases did not always
                           provide the detailed steps for executing the tests. In
                           addition, test cases did not always include adequate
                           expected results. The Chief Financial Officer (CFO)
                           function reviewed the test cases and also found them to
                           be lacking adequate expected results.
                       •   Test schedule – Some of the test cases that were
                           scheduled for execution as part of AQT could not be
                           located in the supporting documentation received as part
                           of the AQT Plan. To adequately plan, all test cases that
                           are scheduled should be documented.


                       8
                        Expected results should include the information necessary for
                       concluding that a test was completed successfully.
                                                                                        Page 5
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       •   Requirements Traceability – The requirements
                           traceability verification matrix is a tool used to ensure
                           that each system requirement is tested by assigning it to
                           one or more test cases. This tool helps to ensure that all
                           requirements are tested. We found that the AQT project
                           schedule referred to test cases that were not in the AQT
                           requirements traceability matrix. To adequately plan,
                           the matrix should be complete.
                       Data conversion issues should be tracked
                       Data conversion testing is needed when converting data
                       from an old system to a new system. Due to the nature of
                       data conversions, it is likely that inaccuracies will be
                       encountered with data from the old system. Under the
                       pressure of a tight schedule, the IFS project team should be
                       acutely aware of data accuracy and validation issues that
                       could delay timely IFS implementation.
                       The PRIME contractor informed us that it was referring data
                       integrity issues to CFO personnel for resolution. At the
                       time, the PRIME contractor had identified a relatively small
                       amount of data conversion issues and was not formally
                       tracking them. Since data conversion activities will be
                       taking place for the next several months, the potential still
                       exists for significant, or a large number of, errors to be
                       found. On June 24, 2003, we communicated to BSMO
                       officials that data cleaning9 and validation issues should be
                       tracked more formally.
                       For instance, the National Aeronautics and Space
                       Administration (NASA) used a tracking form and measures
                       to record data integrity issues and track progress as it was
                       converting data to the same software package that the IFS
                       project is implementing. If issues are not tracked and large
                       volumes of data integrity issues are encountered just prior to
                       implementation, IFS implementation could be delayed.
                       Management Action: During discussions of a preliminary
                       version of this report, the BSMO indicated that it was using


                       9
                         Data cleaning, or data cleansing, refers to the process of correcting
                       inconsistencies or errors within an old system’s data to make them
                       usable by the new system.
                                                                                          Page 6
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       some tracking mechanisms to monitor data cleaning issues.
                       As of the date of the draft report, the BSMO was reviewing
                       NASA information provided by the audit team to determine
                       if additional detail was needed to formally track data
                       cleaning issues.
                       Independent testing roles should be defined
                       The Enterprise Life Cycle (ELC)10 provides that the IRS
                       Product Assurance function will perform a Systems
                       Acceptance Test (SAT) on each modernization project. A
                       SAT independently assesses the quality of a system and the
                       system’s readiness for implementation. However, the
                       Product Assurance function is not performing an
                       independent SAT for the IFS. Instead, the SIT and the SAT
                       are being combined into one test, which will be performed
                       by a combination of PRIME contractor and CFO personnel.
                       The Product Assurance function determined that it would
                       not conduct a SAT for the IFS because it normally only
                       conducts a SAT on systems that affect taxpayers, and it did
                       not have the skills needed to test the new software and
                       existing interfaces. In addition, the combined testing
                       approach was employed in response to IRS executive
                       direction to reduce overall testing costs.
                       To ensure that adequate independent testing is still being
                       provided without an independent SAT, we conducted
                       interviews with the CFO, Product Assurance, and BSMO
                       functions. We determined that the CFO function is playing
                       a significant role during testing. In addition, the Associate
                       Commissioner, BSM, commented that he had asked project
                       officials to try to ensure some form of Product Assurance
                       function involvement during testing, due to the Product
                       Assurance function’s skills in reviewing testing practices.
                       The Product Assurance function agreed to provide testing
                       support by reviewing high-risk test cases and system
                       documentation.



                       10
                         The ELC is a structured business systems development method that
                       requires specific work products to be developed during different phases
                       of the development process.
                                                                                       Page 7
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       While we agree that the significant role of the CFO
                       function, with assistance from the Product Assurance
                       function in high-risk areas, helps to reduce the risk of not
                       conducting an independent SAT, we are concerned that we
                       could find no clear documentation ensuring that all system
                       requirements are being independently verified. For
                       instance, CFO and Product Assurance function personnel
                       are concentrating on financial requirements. However, the
                       IRS defined certain nonfinancial requirements that will also
                       need to be tested. While these requirements may be tested
                       independently, we could not find any documentation that
                       clearly revealed that all requirements would be
                       independently tested or verified by the IRS. If IRS
                       personnel do not independently ascertain that the correct
                       items are being tested and that test results meet
                       expectations, then the IRS may accept a system that does
                       not perform as expected.
                       The Product Assurance function is also not conducting an
                       independent SAT for the Custodial Accounting Project, a
                       related BSM project. However, the Custodial Accounting
                       Project team is using a roles matrix to ensure that all test
                       cases will be independently executed or validated by IRS
                       personnel. Please see Appendix IV for an independent
                       testing roles matrix example. We believe it would be
                       prudent for the IFS project team to develop a similar matrix.
                       Management Action: During discussions of a preliminary
                       version of this report, the BSMO indicated that it had used
                       information provided by the auditors during the review to
                       fill out an initial matrix. The BSMO indicated that it is now
                       using the initial matrix to ensure that adequate independent
                       testing is being conducted.
                       Risk reduction planning regarding implementation
                       uncertainties should be formalized
                       Testing risk and complexity are increasing, which puts the
                       October 2003 implementation date at risk (see Appendix V
                       for details). Therefore, sound management practices dictate
                       that the IRS begin planning for contingencies due to
                       implementation uncertainties.



                                                                             Page 8
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       The functions currently being performed by the Automated
                       Financial System (AFS)11 must continue into FY 2004 on
                       either the existing AFS or the new IFS. Therefore, the IRS
                       needs to plan to reduce the business risk in case one of the
                       following scenarios occurs:
                       •      The IFS is not implemented in time for FY 2004
                              processing.
                       •      The IFS is implemented in October 2003, but significant
                              problems are encountered after implementation.
                       We were informed that the CFO function was taking steps
                       to ensure that the vendor who maintains the AFS could be
                       brought on-board in time for FY 2004 processing. We were
                       also informed that files were being readied for both systems
                       as a contingency. However, the IRS had not formally
                       documented the risk and the associated plan to reduce the
                       business impact if the IFS is deployed but encounters
                       implementation problems. If the IRS does not document
                       and track activities needed due to implementation
                       uncertainties, needed actions may not be planned for and the
                       IRS may not be able to process financial transactions on
                       either the old or new system at the beginning of FY 2004.

                       Recommendations

                       To ensure that a high-quality IFS is delivered, the Chief
                       Information Officer should ensure that:
                       1. SIT practices are strengthened based on lessons learned
                          during the initial AQT.
                       Management’s Response: BSMO management requested
                       an extension to respond to our draft report from
                       September 25, 2003, to October 2, 2003. As of
                       October 3, 2003, management had not responded to the
                       draft report.
                       2. Data cleaning and validation issues are formally tracked.




                       11
                            The AFS is the IRS’ budget and accounting system.
                                                                                Page 9
             Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date

                                    3. Risk reduction activities being taken in case of untimely
                                       IFS implementation are formally documented and
                                       tracked.
                                    4. The ELC is updated with the new testing strategy, if it is
                                       determined that the strategy is successful and will be
                                       employed in the future. If an ELC update is made,
                                       ensure that there is a requirement to document
                                       independent acceptance roles when the Product
                                       Assurance function is not providing full independent
                                       assurance.
                                    5. An independent testing roles matrix is prepared for the
                                       IFS.
                                    The IFS project team delivered a baseline business case in
Project Costs Are Increasing and
                                    January 2003. The baseline business case provides the
Some Functionality Has Been
                                    estimated cost and benefits of the project. The BSMO also
Postponed
                                    provides the Congress justification to release funds
                                    specifically set aside for the BSM effort by submitting BSM
                                    Spending Plans.
                                    During our audit fieldwork, an update to the baseline
                                    business case was not available for review. Therefore, we
                                    interviewed officials, analyzed GAO reports, and reviewed
                                    change requests to determine if any cost increases were
                                    anticipated or had already occurred during FY 2003.
                                    The GAO reported in June 2003 that the IFS project had a
                                    net budget increase of $20 million between the
                                    November 2002 BSM Spending Plan and the March 2003
                                    BSM Spending Plan.12 The increase was needed to cover
                                    revised labor estimates and an increase in infrastructure13
                                    costs.
                                    The IRS is also considering moving some functionality
                                    originally planned for delivery in October 2003 to early
                                    Calendar Year 2004. According to the IRS, the delay in
                                    functionality will not have an adverse effect on the IRS, as


                                    12
                                       Business Systems Modernization: IRS Has Made Significant Progress
                                    in Improving Its Management Controls, but Risks Remain
                                    (GAO-03-768, dated June 2003).
                                    13
                                       Infrastructure refers to supporting hardware, computer software, and
                                    telecommunications.
                                                                                                  Page 10
             Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date

                                    the functionality is not needed until Calendar Year 2004.
                                    The IRS estimates that the cost increase to deliver delayed
                                    functionality could be $7 million, due to the additional labor
                                    costs the PRIME contractor would incur after
                                    implementation of the IFS Release 1.
                                    In case of a disaster after system implementation, certain
Disaster Recovery Will Not Be
                                    components needed to fully restore IFS functionality are not
Optimal or Fully Tested Before
                                    currently available. For example, mid-level computer
Initial Implementation
                                    systems that will be used to communicate with the IFS
                                    application have not been replicated at a disaster site. Also,
                                    on July 10, 2003, we communicated to IFS project officials
                                    that the current IFS classification for disaster recovery
                                    purposes needs to be reevaluated.
                                    According to BSMO officials, funds have been earmarked
                                    for the next 2 fiscal years to improve disaster recovery
                                    capabilities for all modernization projects. Until that time,
                                    disaster recovery capabilities will be less than optimal.
                                    Until all components needed for a full restoration of IFS
                                    capabilities are put in place, a full test of disaster recovery
                                    capabilities cannot be conducted. According to project
                                    officials, the lack of full disaster recovery capabilities was
                                    caused by past budget cuts. Without full disaster recovery
                                    capabilities and testing, the IRS runs the risk that the IFS
                                    will not be able to fully recover in the event of a disaster.
                                    The Technical Contingency Planning Document is required
                                    to describe business contingency capabilities for a system
                                    before the system is implemented. The final IFS
                                    Contingency Plan was not available prior to the completion
                                    of our audit fieldwork. However, we reviewed the draft
                                    Contingency Plan and noted that the IFS was classified as a
                                    “critical” system. We believe the IRS should reconsider
                                    classifying this system as “mission critical” for two
                                    reasons.14
                                    First, the IFS supports 3 of the 18 mission critical business
                                    processes, as defined in the IRS Business Contingency Case
                                    For Action. Second, the definition of “critical” in the draft

                                    14
                                      A “critical” system must be restored within 5 days, or 120 hours, after
                                    a disaster. A “mission critical” system must be restored within 36 hours
                                    after a disaster.
                                                                                                    Page 11
Risks Are Mounting as the Integrated Financial System Project Team
        Strives to Meet an Aggressive Implementation Date

                       Contingency Plan may not fit the IFS. The draft
                       Contingency Plan states that a “critical” system:
                       •    Is critical in accomplishing the work of the IRS.
                       •    Is primarily performed by computers.
                       •    Can be performed manually for a limited time period.
                       Based on our analysis and discussions with BSMO officials,
                       it would be very difficult to perform the full range of IFS
                       capabilities manually for a limited period of time. Because
                       the Contingency Plan was still in draft, we did not
                       determine why the system was classified as “critical” versus
                       “mission critical.” However, confusion seems to stem from
                       the definition of critical infrastructure15 versus the
                       classification definitions in the draft Technical Contingency
                       Planning Document. If the IFS is not classified correctly,
                       plans may not be made to recover the system in time to
                       perform mission critical tasks.

                       Recommendations

                       To ensure that a high-quality system is delivered, the Chief
                       Information Officer should ensure that:
                       6. The disaster recovery environment is completely built
                          out and tested as soon as possible.
                       7. The IFS classification in the draft Technical
                          Contingency Planning Document is reconsidered.




                       15
                         Presidential Decision Directive 63, Critical Infrastructure Protection,
                       requires agencies to identify and protect critical infrastructures (physical
                       and cyber-based systems) that are essential to the minimum operations
                       of the economy and Federal Government.




                                                                                         Page 12
             Risks Are Mounting as the Integrated Financial System Project Team
                     Strives to Meet an Aggressive Implementation Date

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess whether the Business Systems Modernization
Office (BSMO) and the PRIME contractor1 have controls in place to ensure that activities for
testing, business contingencies, enterprise architecture compliance, and transition management
are adequately planned for the Integrated Financial System (IFS) Release 1.2 Additionally, we
reviewed any recent or anticipated changes to the costs and benefits of the IFS Release 1.
I.      Evaluated whether testing for the IFS Release 1 was adequately planned.
        A.       Determined if the project team had developed test plans that verify whether the
                 IFS Release 1 meets the documented requirements.
        B.       Determined if all aspects of the application would be tested.
        C.       Determined the reasonableness of the testing schedule.
        D.       Determined what controls were in place to ensure sufficient independent testing
                 would be conducted.
        E.       Determined whether performance testing was conducted.
        F.       Determined if data conversion testing controls were in place.
II.     Determined if a specific IFS infrastructure component would be successfully tested and
        meet Enterprise Architecture requirements.
III.    Determined if business contingency planning for the IFS Release 1 was adequate.
IV.     Reviewed recent or anticipated changes to the IFS’ cost and benefits.
V.      Determined if the Internal Revenue Service could switch production back to the current
        system if the IFS Release 1 did not perform adequately at deployment.


1
  The Internal Revenue Service (IRS) hired the Computer Sciences Corporation as the PRIME contractor to design
and develop modernization programs and projects; it created the BSMO to coordinate and oversee the work of the
PRIME contractor.
2
  The IRS intends to address administrative financial management weaknesses by implementing the IFS. The first
release of the IFS will include the Accounts Payable, Accounts Receivable, General Ledger, Budget Execution, Cost
Management, and Financial Reporting activities.




                                                                                                        Page 13
           Risks Are Mounting as the Integrated Financial System Project Team
                   Strives to Meet an Aggressive Implementation Date

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Scott A. Macfarlane, Director
Troy D. Paterson, Audit Manager
Beverly K. Tamanaha, Senior Auditor
Charlene L. Elliston, Auditor
Perrin T. Gleaton, Auditor




                                                                                         Page 14
          Risks Are Mounting as the Integrated Financial System Project Team
                  Strives to Meet an Aggressive Implementation Date

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Commissioner, Business Systems Modernization OS:CIO:B
Deputy Associate Commissioner, Program Management OS:CIO:B:PM
Director, Internal Management Modernization OS:CIO:B:PM:IMM
Acting Director, Portfolio Management Division OS:CIO:R:PM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Associate Commissioner, Business Systems Modernization OS:CIO:B




                                                                                 Page 15
               Risks Are Mounting as the Integrated Financial System Project Team
                       Strives to Meet an Aggressive Implementation Date

                                                                                    Appendix IV


                                 Independent Testing Roles Example

Below is an example of a testing roles matrix that could be used to define Internal Revenue
Service (IRS) involvement during testing.
In the simplistic example below, test type E is not being reviewed, executed, or validated by the
IRS.
                                  Figure 1: Independent Testing Roles Matrix




Source: Treasury Inspector General for Tax Administration.1




1
    Modernization and Information Technology Services.
                                                                                           Page 16
            Risks Are Mounting as the Integrated Financial System Project Team
                    Strives to Meet an Aggressive Implementation Date

                                                                                       Appendix V


               Integrated Financial System Testing Risk and Complexity

Testing risk and complexity are increasing in the following areas:

•   No slack time is left in the testing schedule. Therefore, any slippage on the critical path of
    the project will result in a schedule slip.
•   The test team has begun using a cycle approach to testing. See the following figure depicting
    the cycle approach. At the end of our audit fieldwork, Application Qualification Testing
    (AQT) Cycle 1 had been completed and System Integration Test (SIT) Cycle 1 had begun.
    At the beginning of SIT Cycle 1, a full listing of requirements, and when they would be
    tested, was not available. Also, approved test cases for each test cycle were not available.
    The Integrated Financial System (IFS) project team intends to provide this information
    before SIT Cycle 2. Therefore, we could not determine if all requirements were going to be
    tested using Internal Revenue Service-approved test cases.
    In addition, the IFS project team is under time pressure due to the fact that the first AQT did
    not accomplish as much as hoped for; therefore, the remaining cycles of AQT and the SIT
    will have more requirements to be tested than originally anticipated.
                                      Figure 1: IFS Cycle Testing Approach




       Source: Treasury Inspector General for Tax Administration.

•   Performance requirements are still being defined.
•   No parallel processing is planned for when the IFS project is implemented. Parallel
    processing is a control that can be used to compare the results of a new system to the results
    of an old system after a new system is deployed. Both systems are run until confidence is
    gained that the new system is producing comparable results. The Chief Financial Officer

                                                                                             Page 17
       Risks Are Mounting as the Integrated Financial System Project Team
               Strives to Meet an Aggressive Implementation Date

function explained to us that parallel processing would not be conducted because the Chief
Financial Officer function did not have enough resources to reconcile the IFS to the
Automated Financial System upon implementation.




                                                                                     Page 18
